          U.S. DEPARTMENT OF THE INTERIOR
           OFFICE OF INSPECTOR GENERAL
                     Advisory Report




 Department of the Interior
    Travel Charge Card




No. 2002-I-0048                        September 2002
                                                                     C-IN-MOA-0016-2002
            United States Department of the Interior
                       OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240



                                                                         September 30, 2002


Memorandum

To:      Director, Office of Acquisition and Property Management

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Advisory Report on the Department of the Interior Travel Charge Card
         (No. 2002-I-0048)

        This report presents the results of our review of the travel card portion of the
Department of the Interior’s (the Department) charge card program. We previously
issued a separate report on the purchase card portion of the program.

        We found that the controls over the use of travel cards were not sufficient to
ensure that the cards were used only for authorized purposes. However, the Department
recently issued guidance, based on our review of purchase cards that addresses the
weaknesses we identified. Therefore, we have discontinued our review of the program
and have included in our fiscal year 2003 work plan a review of the implementation of
the new guidance. Also, we are pleased to note that the Department has taken effective
action to reduce the overall delinquency rate on travel card usage and has reduced the
amount of charge offs by the Bank of America.

       In our report we have made a suggestion to the Department that periodic checks
on Bureau and office implementation of the new controls be conducted. The suggestion
mirrors a recommendation made in our report of purchase card usage, which the
Department has agreed to implement.

       We wish to thank the Department, the Bureau of Reclamation, and the National
Park Service for their assistance and cooperation during this review. If you have any
questions regarding this report, please call Ms. Anne Richards, Central Region Audit
Manager, at (303) 236-9243.

cc: Director, National Park Service
    Commissioner, Bureau of Reclamation
                                ADVISORY REPORT
         This advisory report presents the Office of Inspector General’s review of the
travel card portion of the Department of the Interior’s (the Department) Charge Card
Program. The objective of our review was to determine whether Departmental and
Bureau administration of the program in question was competent in minimizing improper
use of the cards. Although we found the Department and Bureau controls were
insufficient in this regard, the Department issued guidance on March 12, 2002, that
strengthens controls on the cards. These controls were issued as a result of our audit
report titled Department of the Interior, Integrated Charge Card Program,
(No. 2002-I-0011), dated December 2001. If properly implemented, the new controls
should reduce misuse of both travel and purchase cards. As such, we have concluded our
review of the travel card after surveying card use in the Bureau of Reclamation (BOR)
and the National Park Service (NPS), and we will schedule another review for next year
to look at implementation of the new controls. This review will include an evaluation of
centrally billing hotel charges, which bills the Bureau for card transactions rather than the
individual. Currently, BOR is the only Bureau in the Department that uses this process
for billing hotel charges.

BACKGROUND
         In May 1998, a contract was awarded to NationsBank, now the Bank of America,
to provide a Charge Card Program to the Department.1 The program allows one card to
be used for three different lines of credit, including micro-purchases, travel expenses, and
fuel for government vehicles. Program Coordinators determine each business-line
authority by an option set, which is a card-specific code that provides authority for, or
restricts, transactions to certain categories of merchants.

       The goals of the Charge Card Program are to streamline and standardize
operations and reduce administrative and transactional costs ─ which are constantly
changing due to shifts in the number of cardholders. As of September 2001, the
Department had 54,905 cardholders with travel authority.

       In addition to the Program’s goals is the incentive to improve efficiency in the
payment process through the Smartpay Program, which allows Bureaus to make
payments on a daily basis. In fiscal year (FY) 2001, the Department paid $189,975,000
on 1,233,000 travel transactions.

Small Purchases Card

       In our audit report titled Department of the Interior, Integrated Charge Card
Program, we reviewed the small purchase card, finding that the Department did not
always examine or validate card transactions. We also reported that the Department had

1
 The Travel and Transportation Reform Act of 1998, Public Law 105-264, requires Federal employees to
use Federal charge cards for all payments of expenses of official Government travel.


                                                  1
not established an effective process to train approving officials on how to conduct
reviews of charge card activity. As a result, improper transactions went undetected. This
resulted in the loss of monies, the cost of disciplinary action, and the potential loss of
confidence in the Department.

        The Department agreed that in order to make its Charge Card Program more
effective and efficient, more human controls were needed. The Department has already
taken some corrective actions, which include issuing revised guidance and conducting
training for reviewing officials. In addition, individual Bureaus have taken action to
address specific Bureau issues, including disciplinary action, training, and steps to hold
reviewing officials accountable.

Travel Card

         The travel line includes centrally billed transactions, which are charge card
transactions billed directly to the Bureau, and individually billed transactions, which are
charge card transactions charged to an employee’s card for which he/she must pay.
Centrally billed transactions include air and ground transportation charges; individually
billed items include lodging, meals, and ATM advances. The BOR is the only
Departmental Bureau authorized to centrally bill lodging transactions.

RESULTS OF SURVEY
        The primary weakness in the travel card was that supervisors and other
knowledgeable officials were not comparing receipts and invoices with travel vouchers,
which is essentially the same weakness we encountered with the purchase card. In our
report titled Department of the Interior, Integrated Charge Card Program, we stated that
the Department had not established an effective process to review and validate purchase
transactions. Based on the recommendations in our report, the Department issued new
guidance that addresses both the purchase and travel cards. The new guidance requires
that approving officials:

           •   Take Internet-based training that explains their duties and responsibilities
               and shows how to accomplish them.

           •   Reconcile monthly statements to the travel vouchers for the travelers over
               which they have approval authority.

       We believe these controls help minimize the risk of the travel card being misused.

        We are pleased to note that the Department has taken aggressive action to reduce
the rate of delinquencies in individual billing and has reduced the amount of write-offs,
which are amounts due that are deemed uncollectible, by the Bank of America.
Specifically, the Department has implemented procedures to withhold the wages of
employees with delinquent accounts. The Department has successfully reduced its
overall delinquency rate to 4 percent, which is significantly less than many Federal


                                             2
agencies. Further, the Bank of America write-offs for Department employees’ accounts
have gone from $880,000 in FY 2000 down to $190,000 in FY 2001 (a 78.4 percent
drop) and only $46,000 in the first half of FY 2002.

        The following presents the details of our review at NPS and BOR as well as our
comments on centrally billed hotel charges and our suggestion for strengthening the
travel card review environment.

National Park Service
        Based on our review of travel card controls at the NPS Intermountain Region and
Denver Service Center, we found that NPS was effective in minimizing travel card abuse
because it relied on its Budget and Finance offices to review travel charges to travel
vouchers. Any discrepancies identified, such as an airline ticket without a matching
travel authorization or voucher, were referred to the appropriate supervisors for action.
However, NPS plans to transition to the new control procedures as required by the March
12, 2002 Departmental guidance, and it will rely on the approving officials rather than the
Budget and Finance offices.

Bureau of Reclamation
        We reviewed the travel card controls at BOR, which included reviewing its
policies and procedures for card use, procedures for travel vouchers, and individual
travelers’ statements at the Reclamation Service Center – where we interviewed
approving officials and travelers.

        At BOR, the primary control for minimizing improper use of the cards was in the
hands of the supervisor/approving official; however, the Bureau had no specific
requirement in place for the approving official to compare charge card receipts to travel
vouchers and supporting documentation. In practice, the approving officials performed a
limited review of charge card statements based on their knowledge of travel completed
by their employees. The statements were not reviewed the same time as the travel
vouchers and supporting documentation. This process was inadequate because the
approving officials relied on memory rather than actually comparing the statements to the
vouchers. If only several trips were involved, this process would have worked; however,
reliance on memory doesn’t suffice when there are multiple trips and travelers because
charges and vouchers may cover several billing cycles. For example, airline tickets may
be purchased in April when the reservation is made, rather than in June when the travel
occurs. This would require an approving official to remember travel for all employees
over the span of several months.

        We believe that the approving officials should formally reconcile statements to
vouchers. The Department’s new guidance, combined with the training for approving
officials, should, if effectively implemented, be able to minimize abuse of the cards.




                                            3
Centrally Billed Hotel Charges

        In April 1999, the Department authorized the BOR’s pilot project to centrally bill
hotel expenses. In November 1999, BOR’s final report on the project supported the
centrally billing of hotel charges and recommended that the Department apply the process
to other Bureaus. The process has been ongoing at BOR; however, the Department has
yet to expand it to other Bureaus because it has been waiting for the results of our review
of the project, which we will conduct during FY 2003.

        We understand central billing is in place to increase the benefits the Department
reaps from the process. Because the Bureaus pay the Bank of America on a daily basis,
the Department gets a rebate based on prompt payment. Also, increasing the number of
items billed in this manner decreases the amount individual employees must pay, which
will decrease delinquent payments. Nonetheless, we believe that the Department should
wait to expand the process beyond BOR until the new control environment is in place and
operating effectively. We plan to include the process in our review of the new
Departmental controls over travel card use. The review will be scheduled for next year to
allow time for the new control environment to be firmly established and for centrally
billing hotel charges to be perceived as normal operations.

Suggestion for an Additional Safeguard
         The main control identified in the new Departmental guidance (approving
officials comparing cardholders’ statements to travel vouchers and receipts) relies on
human action. As such, there is no assurance that the process will be conducted properly.
In fact, the prior credit card audit found that reviewers did not actually check the
statements against individual invoices or other supporting documentation. While the
training for approving officials should help mitigate this problem, we believe continual
checks of the control environment are necessary. Accordingly, we believe that the
Director of the Office of Acquisition and Property Management should ensure that
management control reviews are periodically conducted to review the reconciliation
process and the control environment over the Charge Card Program. The overall
management control review process is established in the Office of Management and
Budget Circular A-123, Management Accountability and Control.

       Section 5(a) of the Inspector General Act (5 U.S.C § App. 3) requires the Office
of Inspector General to list this report in its Semiannual Report to the Congress.

       Although this advisory report does not require a response, we would appreciate
being kept apprised of the actions the Department takes on our suggestion. If you have
any questions regarding this report, please call Ms. Anne Richards, Regional Audit
Manager, or Mr. Lee Scherfel, Senior Auditor, at (303) 236-9243.




                                            4
                                                                           APPENDIX



SCOPE AND METHODOLOGY
        We performed our survey work from December 2001 through July 2002 in
Lakewood, Colorado, at the Bureau of Reclamation Service Center and the National Park
Service’s Intermountain Region office and Denver Service Center. We examined current
policies and procedures at both Bureaus. We did not conduct detailed transaction testing
due to the issuance of new guidance, which significantly changed the way the Bureaus
review charge card transactions.

We conducted the survey in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances.




                                           5
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
